           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION
  CAN RECOVER MILLIONS IN MEDICARE
  PREMIUMS RELATED TO RETIREMENT
    OR DISABILITY PAYMENTS MADE
             AFTER DEATH

      July 2002   A-08-02-12029
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

      Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
      Review and make recommendations regarding existing and proposed
      legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
      problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

      Independence to determine what reviews to perform.
      Access to all information necessary for the reviews.
      Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                               SOCIAL SECURITY

MEMORANDUM

Date:      July 3, 2002                                                         Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration Can Recover Millions in Medicare
           Premiums Related to Retirement or Disability Payments Made after Death
           (A-08-02-12029)


OBJECTIVE
The objective of this audit was to determine whether the Social Security Administration
(SSA) recovered Medicare premiums withheld from retirement or disability payments
made after a beneficiary’s death and remitted to the Centers for Medicare and Medicaid
Services (CMS).

BACKGROUND
Individuals receiving title II Social Security retirement benefits or who have been
receiving disability benefits for 24 months may be entitled to Medicare, a health
insurance program administered by CMS. If an individual elects Medicare Part B
coverage (medical insurance), SSA withholds a premium from the beneficiary’s monthly
benefit payment and forwards it to CMS to pay for the coverage. For Calendar Year
(CY) 2002, the Part B monthly Medicare premium is $54.

When SSA does not receive timely notification of a beneficiary’s death, it may continue
to issue benefit payments and remit monthly Medicare premiums for months, or even
years, after the month of death. For example, SSA did not learn of one beneficiary’s
death for 21 years. During this period, SSA deducted and remitted about $7,000 in
Medicare premiums to CMS. In another case, SSA did not learn of a beneficiary’s
death for 10 years and remitted about $3,500 in Medicare premiums to CMS.
Page 2 – The Commissioner

SCOPE AND METHODOLOGY
To accomplish our objective, we interviewed SSA Headquarters personnel responsible
for remitting Medicare premiums withheld from beneficiaries’ monthly benefit payments
to CMS. Additionally, we attempted to review SSA’s procedures and practices for
recovering Medicare premiums remitted to CMS after a beneficiary’s death; however,
we determined that SSA had no such procedures. We also interviewed CMS personnel
to determine its procedures and practices for returning Medicare premiums SSA remits
after beneficiaries’ deaths. To determine the dollar value of payments from which SSA
remitted Medicare premiums to CMS after the beneficiaries’ deaths, we obtained a data
extract from the Master Beneficiary Record (MBR) of over 3 million title II beneficiaries
that died in CYs 1998 through 2001 and received at least one benefit payment after
their deaths.1 Using the monthly Medicare premium amount for the relevant year, we
calculated the dollar value SSA remitted to CMS for these 3 million beneficiaries,
assuming the Agency made only 1 payment after each individual’s death.

The SSA entity reviewed was the Office of the Deputy Commissioner for Finance,
Assessment and Management. We conducted our audit from August through
December 2001 in accordance with generally accepted government auditing standards.

RESULTS OF REVIEW
Since the Medicare program’s inception in 1965, SSA has not recovered from CMS
hundreds of millions of dollars in premiums the Agency withheld from title II retirement
or disability payments made after beneficiary deaths and remitted to CMS. This
situation has occurred because SSA does not have a process in place to ensure it
systematically recovers Medicare premiums once it learns of a beneficiary’s death. As
shown in Table 1, for CYs 1998 through 2001, SSA did not recover over $146 million in
Medicare premiums it withheld from beneficiary payments after beneficiaries’ deaths
and then remitted to CMS.

We based this estimate on the premise that SSA remitted only 1 month of Medicare
premiums to CMS after the beneficiaries’ deaths. However, we recognize that SSA
does not always immediately learn of a beneficiary’s death. As a result, SSA
occasionally sends payments for months or even years before receiving death
notification. Therefore, the amount of Medicare premiums not reimbursed by CMS for
CYs 1998 through 2001 may be larger than the figure we reported, and we present this
calculation only as an illustration of the potential magnitude of this problem. We
understand the overall cost to the Government is not impacted, but for reasons of
accountability and accuracy, we believe SSA should recover Medicare premiums
remitted to CMS after beneficiaries’ deaths.




1
    We did not test the reliability of data included in SSA’s MBR.
Page 3 – The Commissioner

Table 1: Unrecovered Medicare Premiums (CYs 1998 through 2001)

    Calendar          Beneficiaries            Monthly          Amount of                 Interest
      Year          from Whom SSA              Medicare        Unrecovered             Income Lost
                        Withheld               Premium          Medicare                (with Yearly
                        Medicare                                Premiums              Compounding)2
                     Premiums after
                          Death
    1998                 810,218                $43.80          $35,487,548              $       03
    1999                 812,629                $45.50           36,974,619              2,448,641
    2000                 782,908                $45.50           35,622,314              5,168,846
    2001                 769,294                $50.00           38,464,700              7,983,436
     Total             3,175,049                               $146,549,181            $15,600,923

Because SSA did not recover the Medicare premiums, its title II trust funds also lost the
opportunity to earn interest because of lower fund balances available to invest in
U.S. Treasury securities. For example, as shown in Table 1, we estimate SSA lost the
                                                                            4
opportunity to earn over $15 million in interest for CYs 1998 through 2001.
Furthermore, SSA has not recovered Medicare premiums for more than just the 4 years
we reviewed. SSA Headquarters staff told us the Agency has not had a process to
systematically recover Medicare premiums since the program was enacted in 1965.
Accordingly, unrecovered Medicare premiums and the lost opportunity for SSA to earn
interest could total hundreds of millions of dollars.

If SSA does not take a proactive role in recovering Medicare premiums, the Social
Security title II trust funds will continue to lose millions of dollars in the future. If SSA
fails to implement a process to recover Medicare premiums remitted to CMS after a
beneficiary’s death, we estimate title II trust funds would lose at least $208 million in
unrecovered Medicare premiums and also lose the opportunity to earn an additional
$95 million in interest over the next 5 years.5




2
 We define “interest income lost” as income SSA could have earned and invested if it had recovered
Medicare premiums remitted after beneficiaries’ deaths.
3
  To present a conservative figure, we did not begin calculating interest for any given year until the
following year. For example, for CY 1998, we did not begin calculating interest until CY 1999.
4
 We based this estimate on a rate of 6.9 percent interest compounded annually. This is the rate shown
as the “return on trust fund investments” in SSA’s 2001 Accountability Report.
5
 We based this estimate on the number of beneficiaries from whom SSA withheld Medicare premiums
after death in CY 2001 and projected it over the next 5 years, using the CY 2002 monthly Medicare
premium rate of $54. To estimate interest income lost, we used 6.9 percent interest compounded
annually, the rate shown as the “return on trust fund investments” in SSA’s 2001 Accountability Report.
Page 4 – The Commissioner

CMS personnel acknowledged that CMS does not have a process in place to
systematically and routinely return funds to SSA in situations where SSA remitted
Medicare premiums after beneficiaries’ deaths. SSA representatives from the Office of
the Deputy Commissioner for Finance, Assessment and Management acknowledged
SSA could recover millions of dollars of Medicare premiums by establishing systematic
procedures. Further, the representatives stated the potential monetary increase from
these returned premiums would greatly exceed any costs associated with implementing
such recovery procedures. SSA representatives from the Office of Systems told us the
Agency plans to implement an automated process to recover Medicare premiums paid
after beneficiaries’ deaths as part of its redesign of title ll systems. However, the target
date for implementation is not until August 2003.

CONCLUSION AND RECOMMENDATIONS

If SSA does not take a proactive role in recovering Medicare premiums paid after
beneficiaries’ deaths, the Social Security title II trust funds will lose millions of dollars in
the future. Furthermore, these trust funds will continue to lose the opportunity to earn
interest because of lower fund balances available to invest in U.S. Treasury securities.
We believe SSA has a special fiduciary responsibility to effectively manage and
maintain the integrity of the Social Security trust funds. Accordingly, we encourage
SSA to expeditiously implement an automated process whereby the Agency can
systematically and routinely recover Medicare premiums remitted to CMS after a
beneficiary’s death.

We recommend that SSA:

1. Establish a committee of SSA and CMS officials to discuss procedures and
   practices for recovering Medicare premiums and work toward a joint resolution of
   the issue.

2. Develop and implement an automated process to ensure that SSA systematically
   and routinely recovers Medicare premiums remitted to CMS after a beneficiary’s
   death.

3. Calculate the amount of unrecovered Medicare premiums SSA has withheld from
   deceased beneficiaries and remitted to CMS. We believe SSA should go back as
   far as data are available to determine this amount.

4. Analyze the practicality and feasibility of CMS transferring the unrecovered Medicare
   premiums to SSA.
Page 5 – The Commissioner

5. If the transfer of unrecovered Medicare premiums is determined to be practical and
   feasible, establish an accounts receivable amount due from CMS for premiums
   remitted after beneficiaries’ deaths. The amount should include premiums already
   remitted to CMS and those SSA may continue to remit after beneficiaries’ deaths
   until a system is in place to prevent such occurrences.

AGENCY COMMENTS AND OFFICE OF THE INSPECTOR GENERAL
RESPONSE

SSA agreed with our recommendations. It stated the Agency will establish an
interagency committee/workgroup to discuss procedures and practices for recovering
Medicare premiums and work toward a joint resolution of the issue. SSA stated the
Office of Systems will implement an automated process for recovering Medicare
premiums related to title II payments made after death. SSA estimates this process will
be implemented within Title II Redesign, release 3, in August 2003. The full text of
SSA’s comments is included in Appendix A.

We believe SSA’s response and planned actions adequately address our
recommendations. However, we are concerned with the delay in implementing an
automated process for recovering Medicare premiums related to title II payments made
after death. In the meantime, title II trust funds will lose millions of dollars in
unrecovered Medicare premiums and the opportunity to earn interest. We encourage
SSA to find an interim method for recovering Medicare premiums until it can implement
the Title II Redesign, release 3, in August 2003.




                                               James G. Huse, Jr.
                                 Appendices
Appendix A – Agency Comments

Appendix B – OIG Contacts and Staff Acknowledgments
                  Appendix A

Agency Comments
                                     SOCIAL SECURITY

MEMORANDUM                                                                    31213-24-798


Date:     June 10, 2002                                                   Refer To:   S1J-3

To:       James G. Huse, Jr.
          Inspector General

From:     Larry Dye /s/
          Chief of Staff

Subject   Office of the Inspector General Draft Report, “The Social Security Administration Can
:         Recover Millions in Medicare Premiums Related to Retirement or Disability Payments
          Made after Death” (A-08-02-12029)—INFORMATION


          We appreciate OIG’s efforts in conducting this review. Our comments on the report are
          attached. Staff questions can be referred to Odessa J. Woods on extension 50378.

          Attachment:
          Proposed Comments
SOCIAL SECURITY ADMINISTRATION (SSA) COMMENTS ON THE OFFICE OF
THE INSPECTOR GENERAL (OIG) DRAFT REPORT, " THE SOCIAL SECURITY
ADMINISTRATION CAN RECOVER MILLIONS IN MEDICARE PREMIUMS
RELATED TO RETIREMENT OR DISABILITY PAYMENTS MADE AFTER DEATH”
(A-08-02-12029)


Recommendation 1

Establish a committee of SSA and the Center for Medicare and Medicaid Services (CMS)
officials to discuss procedures and practices for recovering Medicare premiums and work toward
a joint resolution of the issue.

SSA Comment

We agree. SSA will establish an interagency committee/workgroup chaired by the Office of
Disability and Income Security Programs with representation from other SSA components,
including the Office of Systems and the Office of Finance, Assessment and Management.

Recommendation 2

Develop and implement an automated process to ensure that SSA systematically and routinely
recovers Medicare premiums remitted to CMS after a beneficiary’s death.

SSA Comment

SSA’s Office of Systems will implement an automated process for recovering Medicare
premiums related to title II payments made after death. It is anticipated that this process will be
implemented within Title II Redesign, release 3. Barring any negative resource impact,
Release 3 will be implemented in August 2003.

Recommendation 3

Calculate the amount of unrecovered Medicare premiums SSA has withheld from deceased
beneficiaries and remitted to CMS. We believe SSA should go back as far as data are available to
determine this amount.

SSA Comment

We agree. In contrast to Recommendation 2, this recommendation proposes retroactively
calculating unrecovered Medicare premiums. Therefore, a prioritized Information Technology
(IT) proposal will be required to develop an automated means to identify and report unrecovered
amounts. The interagency committee/workgroup will establish how the recommendation can be
implemented and what the IT proposal should prescribe.
Recommendation 4

Analyze the practicality and feasibility of CMS transferring the unrecovered Medicare premiums
to SSA.

SSA Comment

We agree. The interagency committee/workgroup will also establish how this recommendation
can be implemented and what should be included in the IT proposal, including data CMS may
need to support potential trust fund transfer.

Recommendation 5

If the transfer of unrecovered Medicare premiums is determined to be practical and feasible,
establish an accounts receivable amount due from CMS for premiums remitted after
beneficiaries’ deaths. The amount should include premiums already remitted to CMS and those
SSA may continue to remit after beneficiaries’ deaths until a system is in place to prevent such
occurrences.

SSA Comment

The interagency committee/workgroup will determine how and when this recommendation can
be implemented.
                                                                        Appendix B

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, Southern Audit Division
   (205) 801-1605

   Jeff Pounds, Deputy Director, Birmingham Field Office
   (205) 801-1606

Staff Acknowledgments

In addition to those named above:

   Charles A. Lober, Senior Auditor

   Susan Phillips, Auditor

   Kimberly Beauchamp, Writer/Editor

For additional copies of this report, visit our web site at www.ssa.gov/oig or contact the
Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375. Refer to
Common Identification Number A-08-02-12029.
                           DISTRIBUTION SCHEDULE

                                                                         No. of
                                                                         Copies

Commissioner of Social Security                                            1
Management Analysis and Audit Program Support Staff                       10
Inspector General                                                          1
Assistant Inspector General for Investigations                             1
Assistant Inspector General for Executive Operations                       3
Assistant Inspector General for Audit                                      1
Deputy Assistant Inspector General for Audit                               1
 Director, Data Analysis and Technology Audit Division                     1
 Director, Financial Audit Division                                        1
 Director, Western Audit Division                                          1
 Director, Southern Audit Division                                         1
 Director, Northern Audit Division                                         1
 Director, General Management Audit Division                               1
Issue Area Team Leaders                                                   25
Income Maintenance Branch, Office of Management and Budget                 1
Chairman, Committee on Ways and Means                                      1
Ranking Minority Member, Committee on Ways and Means                       1
Chief of Staff, Committee on Ways and Means                                1
Chairman, Subcommittee on Social Security                                  2
Ranking Minority Member, Subcommittee on Social Security                   1
Majority Staff Director, Subcommittee on Social Security                   2
Minority Staff Director, Subcommittee on Social Security                   2
Chairman, Subcommittee on Human Resources                                  1
Ranking Minority Member, Subcommittee on Human Resources                   1
Chairman, Committee on Budget, House of Representatives                    1
Ranking Minority Member, Committee on Budget, House of Representatives     1
Chairman, Committee on Government Reform and Oversight                     1
Ranking Minority Member, Committee on Government Reform and Oversight      1
Chairman, Committee on Governmental Affairs                                1
Ranking Minority Member, Committee on Governmental Affairs                 1
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                 1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                             1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                   Office of Executive Operations
OEO supports the OIG by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and human
resources. In addition, this office is the focal point for the OIG’s strategic planning function and
the development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
